Nos. 19-431 & 19-454

 

 

IN THE

Supreme Court of the United States

LITTLE SISTERS OF THE POOR SAINTS
PETER AND PAUL HOME,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.

DONALD J. TRUMP, PRESIDENT OF
THE UNITED STATES, e7 al.,
Petitioners,
Vv.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.

On Writs of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF AMICI CURIAE OF
THE CENTER FOR INQUIRY, INC.,
AMERICAN ATHEISTS, INC., AND THE
AMERICAN HUMANIST ASSOCIATION,
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,939 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
